                                        ADVISORY




RECOVERY OVERSIGHT ADVISORY
Whistleblower Posters for ARRA Awards




Report No.: RO-C-MOA-0044-2011          January 2011
                 OFFICE OF
                 INSPECTOR GENERAL
                 U.S.DEPARTMENT OF THE INTERIOR


                                                                                                    JAN 25 2011
Memorandum

To:                Chris Henderson
                   Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:              Robert A. Knox I t:c> t>             ~
                   Assistant Ins ctor General fc;~~covery Oversight

Subject:           Recovery Oversight Advisory - Whistleblower Posters for ARRA A wards
                   Report No. RO-C-MOA-044-2011

        This advisory informs you of our effort to ensure posting of rights and remedies pursuant
to Section 1553 ofthe American Recovery and Reinvestment Act of2009 (ARRA) and our
finding that few notifications have been posted. This is part of our ongoing efforts to oversee and
ensure the accountability of funding appropriated to the U. S. Department of the Interior (DO I)
under ARRA.

Background

        Section 1553(e) of ARRA states that "[a]ny employer receiving covered funds shall post
notice of the rights and remedies provided under this section [Protecting State and Local
Government and Contractor Whistleblowers]." The Association of Certified Fraud Examiners
indicated that "[t]he mere mention of an anti-fraud, confidential hotline can deter fraud ." I The
Association also cited a 2005 National Business Ethics Survey stating that "[a] small number of
employees who did not report misconduct (18 percent in 2005) said they were unclear whom to
contact in order to raise their suspicious [sic] of unethical conduct."2 For these reasons, the
Office of Inspector General (OIG) believes that posting whistleblower notifications is an
important step in fraud prevention.

        In Recovery Oversight Advisory ROO-ROA-BIA-2008-2010, dated April 27, 2010, we
noted that a Rough Rock construction site failed to display a notice about whistleblower
protection. As a result, we recommended that the Assistant Secretary - Indian Affairs ensure that
contractors and grant recipients post information about whistleblower protections at each project
site.




I Tone At the Top: How Management Can Prevent Fraud In the Workplace, Presented by the Association of Certified Fraud
Examiners, p. 9.
2 rd., p 4.




                                       Recovery Oversight Office I Washington, DC
Finding

        During our site reviews conducted in the last quarter of calendar year 2010, we contacted
five locations receiving ARRA funds for project applications. DOI staff at the following four
locations was unaware of the need to post whistleblower information:

        Bureau          Grant Number             Amount ($)                      Location
                         G10AC00106                 847,356
         USGS                                                                 Harrisburg, PA
                         G10AC00132               1,048,706
         BLM             L10AC16332                 487,950                     Jupiter, FL
         USGS            G09AC00471                  50,926                     Butte, MT
         USGS            G09AC00486                350,549                     Memphis, TN

Figure 1. Site Reviews by Bureau.

Recommendation

      1. We recommend DOI take affirmative steps to ensure that appropriate whistleblower
         protection information is posted at each work location issued ARRA funds.

         Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions DOI will implement to meet our recommendation, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation. We will post this
advisory on our Web site (www.doioig.gov/recovery/) and Recovery.gov. Information contained
in this advisory may also be included in our semiannual reports to Congress. We performed our
work in accordance with the Quality Standards for Inspections adopted by the Council of the
Inspectors General on Integrity and Efficiency. Please contact me if you have any questions.

cc:      Deputy Secretary, U.S. Department of the Interior
         Director, Office of Executive Secretariat and Regulatory Affairs
         Assistant Secretary for Policy, Management and Budget
         Acting Director, Office of Financial Management
         Director, Office of Acquisition and Property Management
         Director, Bureau of Land Management
         Director, U.S. Geological Survey
         Departmental GAO/ OIG Audit Liaison
         Audit Liaison, Office of the Secretary
         Audit Liaison, U.S. Geological Survey
         Audit Liaison, Bureau of Land Management
         Recovery Act Coordinator, U.S. Geological Survey
         Recovery Act Coordinator, Bureau of Land Management




                                                                                                  2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
